                     U.S. ENVIRONMENTAL PROTECTION AGENCY

                     OFFICE OF INSPECTOR GENERAL




                      Spending Taxpayer Dollars


                     EPA OIG Compliance With
                     Managing Vehicles Within
                     EPA’s Fleet Management
                     Program
                     Report No. 15-B-0002                   October 6, 2014




Scan this mobile
code to learn more
about the EPA OIG.
Report Contributors:                                 Marcia Hirt-Reigeluth
                                                     Anthony Grear
                                                     Cara Lindsey
                                                     Andres Calderon
                                                     Gloria Taylor-Upshaw
                                                     Michael Davis




Abbreviations

AST            Automotive Statistical Tool
EPA            U.S. Environmental Protection Agency
FMR            Federal Management Regulation
GSA            General Services Administration
HTW            Home-to-work
OI             Office of Investigations
OIG            Office of Inspector General
WTH            Work-to-home


 Are you aware of fraud, waste or abuse in an            EPA Office of Inspector General
 EPA program?                                            1200 Pennsylvania Avenue, NW (2410T)
                                                         Washington, DC 20460
 EPA Inspector General Hotline                           (202) 566-2391
 1200 Pennsylvania Avenue, NW (2431T)                    www.epa.gov/oig
 Washington, DC 20460
 (888) 546-8740
 (202) 566-2599 (fax)
 OIG_Hotline@epa.gov                                     Subscribe to our Email Updates
                                                         Follow us on Twitter @EPAoig
 More information at www.epa.gov/oig/hotline.html.       Send us your Project Suggestions
                                                                                                             15-B-0002
                        U.S. Environmental Protection Agency                                            October 6, 2014
                        Office of Inspector General


                        At a Glance
Why We Did This Audit              EPA OIG Compliance With Managing Vehicles
We sought to determine             Within EPA’s Fleet Management Program
whether the U.S.
Environmental Protection            What We Found
Agency (EPA) Office of
Inspector General (OIG)            Our audit of the OIG’s OI oversight of its fleet vehicles   Without sufficient
managed its law enforcement        identified five management weaknesses regarding the         management of
vehicles in accordance with        following:                                                  government vehicles,
federal fleet requirements.                                                                    unauthorized use of
                                      Consistency in filling out utilization logs for         those vehicles could
We conducted this audit in
                                                                                               go undetected and
conjunction with an audit of the       vehicle usage.                                          vehicles may not be
agency’s overall fleet                Documentation to support vehicles monitored in          efficiently used.
management. As of November             domicile-to-duty or home-to-work status.
2013, the EPA OIG had a total         Consistency for record keeping of fuel and maintenance receipts.
of 29 vehicles used by the OIG        Fleet manager training on the Automotive Statistical Tool and inputting data
Office of Investigations (OI).         into the fleet information system.
                                      Status of vehicles in locations where there is limited investigative staff.
This report addresses the
following OIG goal:                 Recommendations and Planned Corrective Actions
   Be responsible stewards of     We recommend that the Deputy Inspector General require OI to:
    taxpayer dollars.
                                      Include more information in its home-to-work mileage log to establish internal
                                       controls and provide a documented audit trail to meet requirements.
                                      Confer with the agency on vehicle monitoring and make any needed
                                       changes, to ensure OI procedures have an acceptable level of
                                       documentation needed for the agency to meet its reporting requirements.
                                      Maintain vehicle data in the vehicle’s fleet file in accordance with its new
                                       procedures and train all OI employees involved with inputting and certifying
                                       fleet data as needed.

                                   The Deputy Inspector General agreed with our recommendations as revised.

                                   We did not make a recommendation on utilization logs due to an updated policy
                                   eliminating the requirement for these logs. We also did not make a
                                   recommendation regarding the location of vehicles because OI has been
                                   monitoring vehicle status and adjusting its fleet size.
Send all inquiries to our public
affairs office at (202) 566-2391
or visit www.epa.gov/oig.

The full report is at:
www.epa.gov/oig/reports/2015/
20141006-15-B-0002.pdf
                          UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                       WASHINGTON, D.C. 20460


                                                                                             OFFICE OF
                                                                                        INSPECTOR GENERAL




                                            October 6, 2014

MEMORANDUM

SUBJECT:       EPA OIG Compliance With Managing Vehicles Within EPA’s
               Fleet Management Program
               Report No. 15-B-0002

FROM:          Kevin Christensen, Acting Assistant Inspector General
               Office of Audit

TO:            Charles Sheehan, Deputy Inspector General

As part of our continuing work on internal controls, we initiated an audit of the management of vehicles
within the U.S. Environmental Protection Agency’s (EPA’s) fleet management program. During this
audit, we identified issues that impact the Office of Inspector General (OIG) regarding its management
of OIG law enforcement vehicles, and we are reporting this to you separately.

The office responsible for the implementation of the recommendations within the EPA OIG is its Office
of Investigations.

Action Required

In accordance with OIG Procedure 017, Internal Control Review, Section 1.2e, “Correcting Internal
Control Weaknesses,” weaknesses should be corrected as soon as possible and at the organizational level
closest to the problem. Each OIG office must develop a corrective action plan, which includes a
summary of the weakness, the status of corrective actions, timeline for resolution, and responsible
manager. A determination that a weakness has been corrected is made only when management
demonstrates that the corrective action taken effectively resolved the identified weakness. The
responsible manager must maintain all supporting documentation substantiating that the weakness has
been corrected.

The recommendations will remain open until correction in accordance with Sections 2.1.b.4 and 2.1.b.5
of OIG Procedure 017, which state that the Office of the Chief of Staff shall coordinate the OIG’s
overall management integrity program by tracking the OIG’s progress in taking actions to correct
identified weaknesses, maintaining the OIG Management Action Plan, and providing quarterly updates
to the Inspector General.

We will post this report to our website at http://www.epa.gov/oig.
EPA OIG Compliance With Managing Vehicles                                                                                    15-B-0002
With EPA’s Fleet Management Program



                                     Table of Contents
   Purpose......................................................................................................................   1

   Background ...............................................................................................................      1

   Scope and Methodology ...........................................................................................               2

   Results of Review .....................................................................................................         3

           OI Utilization Logs for Vehicle Usage Need to Be Consistent .............................                               3
           OI Could Improve Monitoring of Vehicles in Domicile-to-Duty or HTW Status .....                                         4
           OI Requires Consistency With Fleet Record Keeping for Receipts .....................                                    5
           OI Fleet Manager Needed Training to Input AST Data........................................                              6
           OI Should Continue to Review Fleet Status in Light of Staff Changes ................                                    6

   Recommendations ....................................................................................................            7

   OIG Response to Draft Report and OIG Evaluation ................................................                                7

   Status of Recommendations and Potential Monetary Benefits .............................                                         8



 Appendices
   A       OIG’s Response to Draft Report ......................................................................                   9

   B       EPA OIG Distribution........................................................................................            11
Purpose
            The purpose of this assignment is to help the U.S. Environmental Protection
            Agency (EPA) Office of Inspector General (OIG) be responsible stewards of
            taxpayer dollars. The assignment focused on determining whether the EPA OIG’s
            law enforcement vehicles within the EPA’s fleet program are managed in
            accordance with federal fleet requirements for vehicle operations, acquisitions and
            utilization. As of November 2013, the EPA OIG fleet had a total of 29 vehicles.

Background
            The Federal Management Regulation (FMR), Subchapter B, Personal Property,
            Part 102-34, Motor Vehicle Management, sets forth the requirements that govern the
            economical, efficient management and control of motor vehicles that the government
            owns, leases commercially, or leases through the General Services Administration
            (GSA) fleet. Section 102-34.20 provides that motor vehicles regularly used by an
            agency to perform investigative, law enforcement or intelligence duties are not
            covered by Part 102-34; these vehicles are subject to Subpart D, Official Use of
            Government Motor Vehicles, and Subpart J, Federal Fleet Report.

            Subpart D, Section 102-34.205, provides that a government vehicle is not to be
            used for transportation between a place of residence and employment unless the
            agency has authorized such use and has maintained a copy of the written
            authorization within the agency and monitors the use of those vehicles.

            Subpart J, Section 102-34.335, provides that agencies must submit annually to
            GSA the information needed to produce the Federal Fleet Report through the
            Federal Automotive Statistical Tool, which is an Internet-based reporting tool.
            This section also requires reporting on five categories: inventory, acquisitions,
            operating costs, miles traveled and fuel used. Section 102–34.345 provides that
            agencies are responsible for developing and keeping adequate accounting and
            reporting procedures for government motor vehicles. These will ensure accurate
            recording of inventory, cost and operational data needed to manage and control
            motor vehicles, and will satisfy reporting requirements. The EPA’s fleet
            management information system is the Automotive Statistical Tool (AST).

            Per the EPA’s draft Fleet Management Manual as of December 2013, the agency
            fleet manager is responsible for administering and implementing fleet management
            guidelines (i.e., the guidelines set forth in the manual) across all designated vehicle
            motor pools for EPA regions, offices and programs. Regional/program fleet
            managers have numerous responsibilities for all government-owned vehicles and
            motor pools within their delegated EPA region or facility. Local fleet managers are
            responsible for the daily operations of the EPA’s motor vehicles.

            The OIG fleet management responsibilities in effect when we started our audit
            were detailed in EPA OIG Policy 217, Law Enforcement Vehicles, dated


15-B-0002                                                                                        1
            November 15, 2007. This document set forth policy and procedures governing the
            acquisition and use of law enforcement vehicles, vehicle safety, vehicle pursuits,
            and the use of emergency equipment in vehicles. The policy noted that the
            supervisor is responsible for determining the requirements in his or her area(s) of
            jurisdiction and will continually ensure that the size of his or her assigned vehicle
            fleet is appropriate for the number of Special Agents and report any necessary
            reductions and/or increases to the Assistant Inspector General for the Office of
            Investigations (OI). The supervisor will review the vehicle logs to ensure proper
            use of vehicles.

            In addition, the 2007 OIG policy stated that the motor vehicle coordinator (OI fleet
            manager) handles the day-to-day vehicle coordination tasks, such as maintaining
            current inspections, producing required reports and ensuring equipment is
            operational. Special Agents are the only persons authorized to use OI law
            enforcement vehicles and may do so only during the performance of official
            government business in accordance with OIG and other relevant federal policies.

            Pursuant to 31 U.S. Code 1344, Passenger Carrier Use, and the December 1990
            determination from the EPA Administrator referred to in the 2007 OIG policy,
            Special Agents are authorized domicile-to-duty transportation, thus authorizing
            the use of government vehicles to transport criminal investigators between their
            residence and various locations. Per OI, the OIG defines domicile-to-duty as
            taking the vehicle home every night because the agent is on 24-hour call, and
            defines home-to-work (HTW) for only situations when it is in the best interest of
            the government for the agent to take a vehicle home in conjunction with planned
            work (warrant, interview, etc.).

            After discussing our preliminary findings with OI, it updated Policy and
            Procedure 217 on January 31, 2014.

Scope and Methodology
            We included the OIG’s OI fleet in our audit of EPA fleet management at the
            request of the Deputy Inspector General, and decided to issue a separate report on
            our results with respect to OI.

            We conducted this audit from June 2013 to July 2014 in accordance with
            generally accepted government auditing standards, issued by the Comptroller
            General of the United States. Those standards require that we plan and perform
            our work to obtain sufficient, appropriate evidence to provide a reasonable basis
            for our findings and conclusions based on our objectives. We believe that the
            evidence obtained provides a reasonable basis for our findings and conclusions
            based on our audit objectives.

            We interviewed EPA OIG regional and headquarters employees assigned fleet
            manager responsibilities. We reviewed EPA OIG policy and procedures


15-B-0002                                                                                       2
            governing its fleet management responsibilities that were in effect when we
            started our audit, particularly OIG Policy and Procedure 217 of November 2007.
            We obtained data on the EPA OIG fleet and verified fleet information using the
            agency’s AST and source documentation. For the preliminary research phase, we
            sampled 11 of the 13 OI vehicles located in Atlanta, Georgia; Philadelphia,
            Pennsylvania; and the Washington D.C., metro area. We selected our sample
            based on the location of the staff assigned to the project and the number of
            vehicles. For each sample vehicle, we reviewed utilization records and fuel and
            repair charges; inventoried the vehicle type, license plate and mileage; and made
            general observations.

Results of Review
            We audited the oversight of OI fleet vehicles and identified five management
            weaknesses:

                  Consistency in filling out utilization logs for vehicle usage.
                  Documentation to support vehicles monitored in domicile-to-duty or
                   HTW status.
                  Consistency for record keeping of fuel and maintenance receipts.
                  Fleet manager training on the AST and inputting data into the fleet
                   information system.
                  Status of vehicles in locations where there is limited investigative staff.

            We did not make a recommendation on the consistency of the utilization logs
            because the requirement to maintain the logs was eliminated from the updated
            OI policy. In addition, we did not make a recommendation regarding the status of
            vehicles in locations with limited investigative staff because OI has been
            monitoring vehicle status and adjusting its fleet size.

            OI Utilization Logs for Vehicle Usage Need to Be Consistent

            OI was not consistent in filling out utilization logs for vehicle usage as required
            by the 2007 policy and procedure. We found that vehicle logs did not consistently
            include case numbers or provide complete trip information. After reviewing the
            logs we obtained during the audit, the OI fleet manager stated that some
            utilization logs should be more complete.

            The 2007 EPA OIG Policy 217, Section 3-10, required that drivers use the
            utilization log to record all of the required information for trips. The policy also
            required that, for each trip, the driver enters the date, corresponding starting and
            ending mileage, point of origin, destination, purpose of the trip, and a case
            number or stand-alone activity code. By not ensuring that drivers correctly enter
            required data into vehicle-utilization logs, OI could increase the chance that
            unauthorized use of the vehicles could go undetected.



15-B-0002                                                                                          3
            During our audit, OI updated Policy 217. The 2007 policy had required that
            drivers use the utilization log to record information for trips. OI stated that:

                   [t]he historical requirement to itemize every vehicular movement
                   was eliminated from the new Procedure because: a) it never was
                   required by GSA or any other authority; b) it exceeds the
                   requirement outlined in the FMR; and c) it single-handedly
                   hamstrings the law enforcement officer’s judgment to utilize a
                   GOV [government-owned vehicle] for what would otherwise be a
                   legitimately official, law enforcement purpose.

            We acknowledge internal controls contained in the old policy exceeded the
            requirements of the FMR. With the issuance of the new policy, OI eliminated the
            internal controls to complete areas such as purpose of trip and case number that
            were identified as not being properly completed in the utilization log. The new
            policy only requires a mileage log for HTW vehicles. Therefore, we do not make
            a recommendation regarding this area.

            OI Could Improve Monitoring of Vehicles in Domicile-to-Duty or
            HTW Status

            Our audit noted an agent was parking an OIG government vehicle at his home
            when the vehicle was not in use. OI’s fleet manager said the supervisor monitors
            the usage and there is no requirement to have supervisory approval to take a
            vehicle home because of the December 1990 authorization. However, we did not
            see any information on the logs to support supervisory review, nor did OI provide
            any documentation demonstrating that domicile-to-duty or HTW use of the
            government vehicle was monitored. The 2007 OIG policy, Section 3-5, stated that
            the supervisor is responsible for monitoring the domicile-to-duty transportation
            usage and compliance with applicable rules and regulations. The policy also
            stated that domicile-to-duty transportation is authorized and considered official
            use and in the best interest of the government. During our audit, we notified OI
            that it needed to update its procedures to ensure there is documentation on file
            noting the circumstances for use of HTW or domicile-to-duty vehicles.
            Clarification of EPA OIG policies would provide support should there be any
            questionable usage of government vehicles in either status.

            OI issued an updated Procedure 217 in January 2014 that states, “a vehicle
            mileage log is required and shall be associated with each vehicle. . . . This log is
            for the exclusive reporting of home-to-work (HTW) and work-to-home (WTH)
            miles when such use is authorized.” Both the old and the new OI procedure
            provide examples of situations that warrant domicile-to-duty transportation, as
            well as authorized and unauthorized vehicle usages. The new procedure requires
            only a vehicle mileage log to monitor the vehicle activity and the Special Agent in
            Charge’s initials on the log to indicate approval for all HTW/WTH evolutions.




15-B-0002                                                                                      4
            Although OI is in compliance with the FMR, in our opinion, recording the miles
            driven does not provide a complete monitoring mechanism or general knowledge
            of whether an agent is using the vehicle in accordance with procedures. Mileage
            information needs to be combined with other information, such as purpose of trip,
            to effectively monitor the proper use of the vehicle. Mileage and the Special
            Agent in Charge’s initials alone do not clearly identify vehicle usage for official
            purpose. OI stated that its newly issued procedure ensures that any use of a
            government vehicle that does not conform to the circumstances in its procedure is
            easily identified by the Special Agent in Charge and remedied or resolved as
            stipulated in the procedure. In our opinion, documentation of vehicle usage would
            provide an audit trail absent the Special Agent in Charge’s knowledge.

            Having a record of vehicle usage would help establish that OI vehicle use is
            monitored in a manner consistent with the regulation governing the monitoring of
            HTW work vehicles, FMR Subpart D, Section 102-34.205. We believe that, at a
            minimum, OI procedures should ensure that OI has an acceptable level of
            documentation needed for the agency to meet its monitoring requirements.
            However, the new OI policy and procedure led to less documentation for
            monitoring the use of vehicles.

            OI Requires Consistency With Fleet Record Keeping for Receipts

            OI was not consistent in keeping fuel and maintenance receipts or appending the
            receipts to the vehicle-utilization logs to support vehicle usage. The OI fleet
            manager said OI has no use for the receipts because receipts are not used to record
            fuel charges. However, the FMR, Subpart J, Section 102–34.345, provides that:

                   [Agencies] are responsible for developing and keeping adequate
                   accounting and reporting procedures for Government motor
                   vehicles. These will ensure accurate recording of inventory, cost,
                   and operational data needed to manage and control motor vehicles,
                   and will satisfy reporting requirements.

            Further, the 2007 EPA OIG Policy 217, Section 3-7, on maintenance, repairs and
            service, required that fuel, repair and maintenance receipts be appended to the
            vehicle-utilization log. For the OI vehicles in our sample, we found either no
            receipts appended to the logs or the fuel costs recorded in AST did not match the
            provided receipts. By not ensuring that drivers maintain receipts for vehicle
            usage, OI increases the chance that unauthorized use of the vehicles could go
            undetected.

            During our audit, OI re-emphasized in its new procedures the requirement for fuel
            and maintenance receipts. In June 2014, we requested OI’s 2014 second quarter
            reporting of receipts for one headquarters vehicle. Although the information was
            reported in AST, the fleet manager had misplaced the receipts for all the
            headquarters vehicles and some regional vehicles for the quarter. Therefore, we



15-B-0002                                                                                       5
            cannot consider this issue resolved and recommend that OI ensures a scanned
            copy of receipts are maintained in the vehicle’s fleet record in accordance with
            Section 3.10 of the new Procedure 217.

            OI Fleet Manager Needed Training to Input AST Data

            The OI fleet manager needed training to input the correct AST data to ensure that
            agents are following the required agency process as well as federal guidance. The
            OI fleet manager placed a fuel and maintenance cost computation in the AST
            instead of using actual receipts. The fleet manager said the EPA did not formally
            train her to use the AST; rather, the fleet manager’s OI predecessor trained her to
            use the formula. The agency directed the OI fleet manager to enter actual receipts
            into the AST.

            During our audit, OI stated that its newly assigned fleet manager had received
            one-on-one training on the agency’s AST from the agency’s AST training
            contractor, and agreed to maintain actual fuel and maintenance receipts and input
            actual costs into the AST on a quarterly basis. OI’s new 217 procedures require
            the OI fleet manager to upload all the required information in AST.

            In June 2014, we confirmed that the new OI fleet manager was trained by the
            agency’s AST contractor to place actual receipts into AST. However, the OI
            manager who certifies the data in AST was trained by his OI predecessor. We
            compared OI’s 2014 second quarter reporting of receipts for fuel and maintenance
            cost for one Atlanta vehicle to data in AST and found a computation inputted
            instead of actual costs. For the second quarter, the OI fleet manager confirmed
            that she placed a fuel and maintenance cost computation in the AST instead of
            using actual receipts. Therefore, we cannot consider this issue resolved, but we
            acknowledge OI is working to resolve this issue. We recommend that OI
            reemphasize the need for all OI employees involved with inputting and certifying
            fleet data in AST are formerly trained on placing actual receipts into AST.

            OI Should Continue to Review Fleet Status in Light of Staff Changes

            We performed an analysis of OI’s vehicle-to-agent ratio and found that, on
            average, OI has two agents assigned to one vehicle. Specifically, we found three
            locations where the ratio is one agent per vehicle, nine locations where the ratio is
            less than one car per agent, and one location where there was an agent with no
            vehicle.

            The 2007 EPA OIG Policy 217, Section 2-1, provided that the supervisor will
            continually ensure that the size of his or her assigned vehicle fleet is appropriate
            for the number of agents, and report any necessary reductions or increases to the
            Assistant Inspector General for Investigations.




15-B-0002                                                                                          6
            Our analysis identified two potential issues. The first issue is that two vehicles
            were in the AST as operating in Philadelphia but there was only one agent at the
            Philadelphia office during our audit in November 2013. Further, following that
            agent’s retirement in February 2014, there were no agents in that office. OI stated
            it transferred one vehicle from Philadelphia to New York during our audit, but the
            AST continues to show the other vehicle operating in Philadelphia.

            The second issue is that in the Boston office there is one vehicle but no agents.
            The fleet manager stated that OI needs the vehicle in Boston for use by agents
            working on investigations in the New England area.

            OI appears to be monitoring vehicle requirements and making adjustments
            accordingly based on staffing changes. We, thus, do not make a recommendation
            regarding this area.

Recommendations
            We recommend that the Deputy Inspector General:

               1. Require OI to include more information in its HTW mileage log to establish
                  internal controls and provide a documented audit trail to meet the
                  monitoring requirements under FMR 102-34, Subpart D, for HTW vehicles.

               2. Require OI to confer with the agency on vehicle monitoring and make any
                  needed changes, to ensure OI procedures have an acceptable level of
                  documentation needed for the agency to meet its reporting requirements
                  under FMR 102-34, Subpart D, for monitoring vehicles used for
                  transportation between a place of residence and employment.

               3. Require OI to maintain vehicle data in the vehicle’s fleet file in
                  accordance with its new 217 procedures and train all OI employees
                  involved with inputting and certifying fleet data in AST on placing actual
                  receipts for costs into AST.

OIG Response to Draft Report and OIG Evaluation
            We received comments from the Deputy Inspector General and revised the report
            as needed. Appendix A contains the detailed comments. We agree with the
            response to all recommendations. For recommendation 1, we revised the
            recommendation to address only Subpart D. The Deputy Inspector General
            response is in agreement with the revised recommendation and has provided a
            planned completion date.




15-B-0002                                                                                       7
                                Status of Recommendations and
                                  Potential Monetary Benefits

                                                                                                                            POTENTIAL MONETARY
                                                  RECOMMENDATIONS                                                            BENEFITS (in $000s)

                                                                                                                Planned
    Rec.    Page                                                                                               Completion   Claimed    Agreed-To
    No.      No.                        Subject                           Status1       Action Official           Date      Amount      Amount

     1        7    Require OI to include more information in its HTW        O       Deputy Inspector General    10/30/14
                   mileage log to establish internal controls and
                   provide a documented audit trail to meet the
                   monitoring requirements under FMR 102-34,
                   Subpart D, for HTW vehicles.

     2        7    Require OI to confer with the agency on vehicle          O       Deputy Inspector General    10/30/14
                   monitoring and make any needed changes, to
                   ensure OI procedures have an acceptable level of
                   documentation needed for the agency to meet its
                   reporting requirements under FMR 102-34,
                   Subpart D, for monitoring vehicles used for
                   transportation between a place of residence and
                   employment.

     3        7    Require OI to maintain vehicle data in the vehicle’s     O       Deputy Inspector General    10/30/14
                   fleet file in accordance with its new 217 procedures
                   and train all OI employees involved with inputting
                   and certifying fleet data in AST on placing actual
                   receipts for costs into AST.




1   O = Recommendation is open with agreed-to corrective actions pending.
    C = Recommendation is closed with all agreed-to actions completed.
    U = Recommendation is unresolved with resolution efforts in progress.




15-B-0002                                                                                                                                          8
                                                                                     Appendix A

                    OIG’s Response to Draft Report


                                          July 24, 2014


MEMORANDUM

SUBJECT:       Response to OIG, Office of Audit Report No. OA-FY13-0333 “EPA OIG
               Compliance with Managing Vehicles Within EPA’s Fleet Management Program,”
               dated July 3, 2014

FROM:          Charles Sheehan
               Deputy Inspector General

TO:            Kevin Christensen
               Acting Assistant Inspector General, Office of Audit

As part of the Office of Inspector General’s audit regarding OIG compliance with managing
vehicles within the agency’s fleet management program, the Office of Audit (OA) made
recommendations to the OIG to ensure the Office of Investigations (OI): 1) better manages and
controls motor vehicles; 2) confers with the agency on vehicle monitoring; and, 3) maintains data
in vehicle fleet files and trains OI employees in the AST system.

The OIG’s response to each recommendation in the report are as follows:

Recommendation #1

“Require OI to include more information in its utilization logs for internal controls to provide a
documented audit trail for operational data needed to meet reporting requirements under FMR
102-34, Subpart J, for operational data needed to manage and control motor vehicles.”

Response

Propose OA correct the report to accurately reflect the appropriate requirement exists only under
FMR 102-34, Subpart D and not Subpart J.

To ensure the authorized purpose is understood and appropriately documented for each usage
occasion under FMR 102-34, Subpart D, OI will amend its current Procedure 217, Appendix #2,
“Annual Vehicle Mileage Log,” to capture the purpose behind each vehicle usage. Anticipated
final delivery for updated Procedure 217 is October 30, 2014.




15-B-0002                                                                                            9
Recommendation #2

“Require OI to confer with the agency on vehicle monitoring and make any needed changes, to
ensure OI procedures have an acceptable level of documentation needed for the agency to meet
its reporting requirements under FMR 102-34, Subpart D, for monitoring vehicles used for
transportation between a place of residence and employment.”

Response

On July 14, 2014, OI met with EPA officials from Office of Administration and Resources
Management, Office of Administration, Facilities Management and Services Division assigned
to Facilities Operations Branch having oversight in the agency’s motor vehicle fleet program. At
that meeting OARM confirmed that OI will adhere to recent changes concerning a requirement
for “actual costs” in fuel charges versus what had historically been required which was
“computed costs.” OARM also confirmed that the agency “Fleet Manual” is still being revised
and is not expected to be published until approximately FY 2015. This recommendation has
been resolved.

OI will continue to work with OARM to ensure OI’s ongoing fleet monitoring and
documentation for the HTW/WTH authorizations are consistent with OARM requirements.

Recommendation #3

“Require OI to maintain vehicle data in the vehicle’s fleet file in accordance with its new 217
procedures and train all OI employees involved with inputting and certifying fleet data in AST on
placing actual receipts for costs into AST.”

Response

OI will work to ensure current 2014 changes to its new 217 procedures for fleet files are adhered
to for proper reporting and program consistency.

OI will ensure that the Fleet Manager relies upon the quarterly report to upload vehicle data to
AST. OI will ensure that scanned fuel receipts are used by the Fleet Manager to reconcile fuel
costs submitted by Fleet Coordinators in their individual quarterly reports.

During its July 14, 2014, meeting with OARM officials, OI determined the OARM prepared
“AST Manual” is expected to be final in 4th Quarter, FY2014. Once that manual has been
published and once formal training is available, OI will avail itself of that training. Until that
time, OI will continue to adhere to any OARM oral AST data requirements and avail itself of any
ad hoc training offered by OARM.




15-B-0002                                                                                          10
                                                                          Appendix B

                             EPA OIG Distribution
Inspector General
Deputy Inspector General
Counsel to the Inspector General
Chief of Staff, Office of Inspector General
Assistant Inspector General for Investigations
Deputy Assistant Inspector General for Congressional and Public Affairs




15-B-0002                                                                         11
